No. 20-__
INTHE

9upreme Qeourt of tbe mniteb 9tateg
REPUBLICAN PARTY OF PENNSYLVANIA,

Petitioner,
V.

KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS
PENNSYLVANIA SECRETARY OF STATE, ET AL.,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Petition
for Writ of Certiorari in Republican Party of Pennsylvania v. Boockvar, No. 20-__,
complies with the word limitations, as it contains 8,961 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: October 23, 2020

-2-

